In the Supreme Court of the United States

No. 19-618

Jon Erig Shaffer,
Petitioner
v.
Commonwealth of Pennsylvania,
Respondent

On Petition for a Writ of Certiorari to
the Court of Pennsylvania

Brief in Opposition; Certificate of Service

Undersigned completed a Certificate of Service on or about March 12, 2020.
According to undersigned’s assistant, the Certificate of Service was sent to this Court
with Respondent’s Brief in Opposition. Based on communication from the Clerk’s
Office of this Court, this Court has not received or has not located the aforementioned
Certificate of Service.

Due to the coronavirus and undersigned’s office closing,

undersigned cannot access the original Certificate of Service. Based on undersigned’s
memory, his assistant’s memory, and undersigned’s review of a prior draft of the Brief
in Opposition, undersigned can certify that the Brief in Opposition was mailed to
opposing counsel, Amir H. Ali, Esq., at the following address via First-Class Mail or
UPS: Amir H. Ali, Esq., Roderick & Solange, MacArthur Justice Center, 777 6th
Street, NW, 11th Floor, Washington, DC 20001. Undersigned also understands from
communications with Mr. Ali that he can access the Brief in Opposition via this

Court’s website. Please accept this Certificate due to the extreme circumstances
surrounding the coronavirus.
Respectfully submitted,
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania

Pa. Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348
Date: March 17, 2020

/s/ Christopher J. Schmidt
CHRISTOPHER J. SCHMIDT
Deputy Attorney General
Appeals & Legal Services Section
Counsel of Record

